U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 21, 2020

Willie Tyler v. USA,
S.Ct No. 20-6484

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
25, 2020 and placed on the docket on December 1, 2020. The government’s response is due on
December 31, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6484
TYLER, WILLIE
USA

QUIN M. SORENSON
FEDERAL PUBLIC DEFENDER'S OFFICE
100 CHESTNUT STREET
STE. 306
HARRISBURG, PA 17101
717-782-2237
QUIN_SORENSON@FD.ORG

